Nos. 19-431 & 19-454

 

IN THE

Supreme Court of the Anited States

LITTLE SISTERS OF THE POOR SAINTS
PETER AND PAUL HOME,
Petitioner,
Vv.
COMMONWEALTH OF PENNSYLVANIA
AND STATE OF NEW JERSEY,
Respondents.

DONALD J. TRUMP, PRESIDENT
OF THE UNITED STATES, et al.,
Petitioners,
Vv.
COMMONWEALTH OF PENNSYLVANIA
AND STATE OF NEW JERSEY,
Respondents.

On Writs of Certiorari to the United States
Court of Appeals for the Third Circuit

BRIEF FOR PROFESSOR MILA SOHONI
AS AMICA CURIAE IN SUPPORT OF
RESPONDENTS

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the document contains
7,999 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.

Executed on April 8, 2020.

 

Colin Casey Hogan
Wilson-Epes Printing Co., Inc.
